Department of Health & Human Services
            OFFICE OF
       INSPECTOR GENERAL




MEDICARE PRESCRIPTION DRUG
  SPONSORS’ TRAINING TO
  PREVENT FRAUD, WASTE,
        AND ABUSE




                   Daniel R. Levinson
                    Inspector General

                      July 2011
                    OEI-01-10-00060
   E X E C U T I V E                                       S U M M A R Y



                  OBJECTIVES
                  1. To determine the extent to which Medicare drug plan sponsors
                     provided, and network pharmacies took, training to prevent fraud,
                     waste, and abuse in 2009.
                  2. To determine the extent to which the training’s content reflected
                     Centers for Medicare & Medicaid Services’ (CMS) guidance.
                  3. To describe the extent to which plan sponsors determined that the
                     training was effective.


                  BACKGROUND
                  Medicare Part D provides prescription drug coverage to beneficiaries
                  through private plan sponsors that contract with CMS. Sponsors
                  provide drug coverage through either a stand-alone prescription drug
                  plan or a Medicare Advantage prescription drug plan.
                  As a condition for contracting with CMS to offer Part D benefits,
                  sponsors must have compliance plans that help them follow Federal
                  regulations and prevent fraud, waste, and abuse. Among other
                  elements that CMS requires, these plans must include effective annual
                  training and education to prevent fraud, waste, and abuse for network
                  pharmacies. Office of Inspector General reviews of Medicare
                  prescription drug plans and reports in the news media have shown that
                  pharmacies are at risk for fraud, waste, and abuse from beneficiaries,
                  employees, prescribers, and drug manufacturers. This raises concerns
                  about the extent to which sponsors comply with these requirements.
                  To conduct this study, we surveyed all 266 Part D sponsors and a
                  random sample of 528 pharmacies (165 chain pharmacies,
                  157 independent pharmacies, and 206 mail-order pharmacies) to collect
                  data on training to prevent fraud, waste, and abuse in 2009. We also
                  analyzed 420 training materials from sponsors and pharmacies.
                  Finally, we interviewed a purposive sample of five sponsors and five
                  pharmacies based on their survey responses.


                  FINDINGS
                  Nearly all Part D network pharmacies received training to prevent
                  fraud, waste, and abuse in 2009; however, not all sponsors
                  documented the training. At least 87 percent of pharmacies reported
                  that all of their staff received training. However, 30 percent of sponsors

OEI-01-10-00060   M E D I C A R E P R E S C R I P T I O N D R U G S P O N S O R S ’ T R A I N I N G T O P R E V E N T F R A U D , WA S T E ,   AND   ABUSE   i
E   X   E C    U T    I     V      E            S      U M            M      A       R Y


                          did not require their network pharmacies to submit documentation of
                          training to verify completion.
                          Training materials generally reflected CMS guidance on content and
                          source, with a few exceptions. Although most training materials
                          included all elements in CMS guidance, more than a third failed to
                          include information on the Health Insurance Portability and
                          Accountability Act (HIPAA). Additionally, more than half of the
                          materials were developed by pharmacies’ corporate offices, despite CMS
                          guidance to sponsors stating that pharmacies should not develop their
                          own materials.
                          Most sponsors could not determine the extent to which training was
                          effective. Although 59 percent of sponsors reported that they assessed
                          the training’s effectiveness, fewer than half could measure its impact on
                          fraud, waste, and abuse. The remaining 41 percent did not assess its
                          effectiveness.


                          RECOMMENDATIONS
                          Fraud, waste, and abuse represent significant threats to Medicare Part D,
                          making training on how to prevent them vital to safeguarding the
                          program. Toward that end, CMS provided guidance on such training to
                          strengthen network pharmacies’ ability to prevent, detect, and respond to
                          these threats. This study identified opportunities to help hone the
                          effectiveness of that training.
                          Therefore, we recommend that CMS:
                          Reiterate to sponsors their responsibilities as the entities
                          accountable for network pharmacies’ training to prevent Part D fraud,
                          waste, and abuse. CMS should reissue guidance to sponsors regarding
                          its expectations for them to: (1) develop and disseminate training
                          materials to their network pharmacies; (2) include HIPAA in their training
                          materials; (3) maintain documentation that pharmacies have received
                          training; and (4) determine the extent to which they are providing effective
                          training and education that reduce fraud, waste, and abuse risks.
                          Use its monitoring authority to determine compliance with training
                          requirements. CMS routinely audits sponsors’ compliance plans to
                          oversee sponsors’ adherence to programmatic requirements. Toward that
                          end, CMS should use these audits to ensure that sponsors are in
                          compliance with all fraud, waste, and abuse training requirements noted
                          above. To achieve this goal, CMS should: (1) review training materials to

    OEI-01-10-00060       M E D I C A R E P R E S C R I P T I O N D R U G S P O N S O R S ’ T R A I N I N G T O P R E V E N T F R A U D , WA S T E ,   AND   ABUSE   ii
E    X   E C     U T    I    V      E            S      U M            M      A       R Y



                       ensure that pharmacies are not developing them; (2) verify that all
                       required contents, including HIPAA, are part of the materials; (3) clarify
                       its requirements regarding sponsors’ obligations to collect documentation
                       from their network pharmacies that they have taken training; and
                       (4) request documentation supporting the extent to which sponsors are
                       developing and providing effective training and education for their
                       network pharmacies.
                       Take steps to ensure that sponsors are providing effective training
                       and education to prevent fraud, waste, and abuse. CMS requires
                       sponsors to provide their network pharmacies with training and education
                       that are effective in preventing, detecting, and responding to potential
                       fraud, waste, and abuse. Therefore, CMS should: (1) develop guidance for
                       sponsors to use in assessing the effectiveness of training and education on
                       fraud, waste, and abuse; or (2) provide a forum (e.g., online or conference
                       call) in which sponsors can share best practices used to determine the
                       training’s effectiveness.


                       AGENCY COMMENTS AND OFFICE OF INSPECTOR GENERAL
                       RESPONSE
                       CMS concurred with our recommendations.




    OEI-01-10-00060    M E D I C A R E P R E S C R I P T I O N D R U G S P O N S O R S ’ T R A I N I N G T O P R E V E N T F R A U D , WA S T E ,   AND   ABUSE   iii
   T A B L E          O F           C O N T E N T S



         EXECUTIVE SUMMARY .....................................i



         INTRODUCTION ............................................ 1



         FINDINGS .................................................. 9
                   Nearly all Part D network pharmacies received training to prevent
                   fraud, waste, and abuse in 2009; however, not all sponsors
                   documented the training . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 9

                   Training materials generally reflected CMS guidance
                   on content and source, with a few exceptions . . . . . . . . . . . . . . . . . 10

                   Most sponsors could not determine the extent to which training
                   was effective. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 13



         R E C O M M E N D A T I O N S . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 15


                   Agency Comments and Office of Inspector General Response……..17


         A P P E N D I X E S . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 18
                   A: Confidence Intervals . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 18

                   B: Agency Comments . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 21


         A C K N O W L E D G M E N T S . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 23
      I N T R O D U C T I O N


                        OBJECTIVES
                        1. To determine the extent to which Medicare drug plan sponsors
                           provided, and network pharmacies took, training to prevent fraud,
                           waste, and abuse in 2009.
                        2. To determine the extent to which the training’s content reflected
                           Centers for Medicare & Medicaid Services’ (CMS) guidance.
                        3. To describe the extent to which plan sponsors determined that the
                           training was effective.


                        BACKGROUND
                        Medicare Part D provides prescription drug coverage to beneficiaries
                        through private plan sponsors that contract with CMS. Sponsors
                        provide drug coverage through either a stand-alone prescription drug
                        plan or a Medicare Advantage prescription drug plan.1 In 2009,
                        266 sponsors offered Part D plans.
                        Previous Office of Inspector General (OIG) reviews of Medicare
                        prescription drug plans and reports in the news media indicate that
                        pharmacies are at risk for fraud, waste, and abuse from beneficiaries,
                        employees, prescribers, and drug manufacturers. 2, 3, 4 Although CMS
                        requires Part D sponsors to develop compliance programs that provide
                        their network pharmacies with training to prevent fraud, waste, and
                        abuse, OIG and the Government Accountability Office (GAO) have
                        shown that CMS has not sufficiently audited sponsors’ compliance plans
                        to determine whether pharmacies’ staff can prevent, detect, and respond
                        to fraud, waste, and abuse. 5, 6 The vulnerabilities identified within
                        pharmacies raise concerns about the extent to which sponsors have


                          1 Medicare Prescription Drug, Improvement, and Modernization Act of 2003,

                        P.L. 108-173, § 101; Social Security Act, § 1860D-1(a); 42 U.S.C. § 1395w-101(a).
                          2 OIG, Medicare Drug Plan Sponsors’ Identification of Potential Fraud and Abuse,

                        OEI-03-07-00380, October 2008.
                          3 Associated Press, Grand Couteau Pharmacist Pleads Guilty, December 19, 2009.

                        Accessed at www.wdam.com on December 22, 2009.
                          4 E. White, Meijer Will Settle Pharmacy Case for $3 Million, Associated Press,

                        December 8, 2009. Accessed at www.abcnews.go.com on December 22, 2009.
                          5 OIG, Oversight of Prescription Drug Plan Sponsors’ Compliance Plans,

                        OEI-03-08-00230, October 2008.
                          6 GAO, Some Plan Sponsors Have Not Completely Implemented Fraud and Abuse

                        Programs, and CMS Oversight Has Been Limited, GAO-08-760, July 2008.



    OEI-01-10-00060   M ED IC AR E P R ESC R IPT I ON DR UG S PO NS OR S ’ T R A IN I NG TO P REV EN T F R AU D, WAST E,   AND   ABUSE   1
I   N T     R O       D     U     C T        I    O     N




                            complied with CMS’s requirement to provide effective training and
                            whether fraud, waste, and abuse may be undetected in a pharmacy
                            setting.
                            Medicare Part D Compliance Plans
                            As a condition for contracting with CMS to offer Part D benefits,
                            sponsors must have in place compliance plans that help them follow
                            Federal regulations and prevent fraud, waste, and abuse. Each plan
                            must include the following elements:
                                  •       written policies, procedures, and standards of conduct articulating
                                          the organization’s commitment to comply with all applicable
                                          Federal and State standards;
                                  •       the designation of a compliance officer and compliance committee
                                          accountable to senior management;
                                  •       provision of effective training and education by the compliance
                                          officer and the sponsor’s employees, managers, and directors for
                                          the sponsor’s first-tier, downstream, and related entities;
                                  •       effective lines of communication between (1) the compliance officer,
                                          members of the compliance committee, the sponsor’s employees,
                                          managers, and directors; and (2) the sponsor’s first-tier,
                                          downstream, and related entities;
                                  •       enforcement of standards through well-publicized disciplinary
                                          guidelines;
                                  •       procedures for effective internal monitoring and auditing; and
                                  •       procedures for ensuring prompt responses to detected offenses and
                                          development of corrective action initiatives relating to the
                                          organization’s contract as a sponsor.7
                            CMS’s Requirement for Sponsors To Provide Effective Training and
                            Education To Prevent Fraud, Waste, and Abuse
                            CMS requires sponsors’ compliance plans to provide for effective
                            training and education to first-tier, downstream, and related entities. 8
                            A first-tier entity is any party that enters into a contract with a sponsor,
                            such as a pharmacy benefit manager (PBM). A downstream entity is

                              7 42 CFR § 423.504(b)(4)(vi). CMS revised its compliance program regulations in 2010 to

                            provide more detail generally with respect to each of the program elements, including the
                            requirement for training. 75 Fed. Reg. 19678 (Apr. 15, 2010).
                                8 Ibid.




    OEI-01-10-00060       M ED IC AR E P R ESC R IPT I ON DR UG S PO NS OR S ’ T R A IN I NG TO P REV EN T F R AU D, WAST E,   AND   ABUSE   2
I   N T   R O     D   U     C T       I   O     N


                          any party that enters into a written arrangement with a sponsor and
                          first-tier entity, such as a network pharmacy. Network pharmacies
                          include retail, mail-order, long-term-care, home infusion, and Indian
                          Health Services/Tribal/Urban Indian Health (I/T/U) pharmacies. 9 A
                          related entity is any party related to a sponsor by common ownership or
                          control, such as a PBM whose parent company is a sponsor. 10 Because
                          sponsors rely specifically on network pharmacies and pharmacists to
                          administer Part D benefits, sponsors must provide them with effective
                          training on how to prevent, detect, and respond to fraud, waste, and
                          abuse.
                          Medicare regulations state that sponsors must provide effective training
                          and education on fraud, waste, and abuse. 11 However, CMS does not
                          provide any specific definition of what constitutes effective training and
                          education. Therefore, it is the sponsors’ responsibility to determine
                          whether the training and education they provide to their network
                          pharmacies are effective in preventing fraud, waste, and abuse.
                          CMS Guidance on Training To Prevent Fraud, Waste, and Abuse
                          In 2008, CMS clarified its guidance on training and education to
                          prevent fraud, waste, and abuse and set deadlines for sponsors to
                          provide training to network pharmacies and downstream and related
                          entities. This guidance required sponsors to provide training between
                          January 1 and December 31, 2009, and annually thereafter. 12
                          Since Part D began, sponsors have sought clarification from CMS on the
                          content of fraud, waste, and abuse training and have raised concerns
                          about how to provide it to their network pharmacies. 13 Although CMS
                          offers general recommendations on the content of training and
                          education, it does not specify a complete list of elements that must be
                          included. 14 For example, CMS states that training and education




                            9 Home infusion pharmacies provide medications to beneficiaries who need long-term

                          therapy while living at home.
                            10 42 CFR § 423.501.
                            11 42 CFR § 423.504(b)(4)(vi).
                            12 CMS Memorandum, Fraud,                Waste and Abuse Training Requirements, October 20,
                          2008.
                            13 Ibid.
                            14 CMS,
                                  Medicare Prescription Drug Benefit Manual, Pub. No. 100-18, ch. 9, § 50.2.3.1;
                          CMS Memorandum, Fraud, Waste and Abuse Training Clarification, August 21, 2009.



    OEI-01-10-00060   M ED IC AR E P R ESC R IPT I ON DR UG S PO NS OR S ’ T R A IN I NG TO P REV EN T F R AU D, WAST E,   AND   ABUSE   3
I   N T     R O       D     U     C T        I    O     N



                            should include, but not be limited to, the following topics for all
                            first-tier, downstream, and related entities:15
                                  •      laws and regulations related to Part D fraud, waste, and abuse
                                         (i.e., False Claims Act, antikickback statute, Health Insurance
                                         Portability and Accountability Act (HIPAA));
                                  •      obligations to have appropriate policies and procedures to
                                         address fraud, waste, and abuse;
                                  •      process for reporting suspected fraud, waste, and abuse to the
                                         sponsor;
                                  •      protections for employees who report suspected fraud, waste,
                                         and abuse; and
                                  •      types of fraud, waste, and abuse that can occur. 16
                            CMS allows sponsors to delegate the development of training materials
                            and the administration of training to any contractor, such as a PBM,
                            professional association, or third-party consultant. CMS guidance to
                            sponsors states that pharmacies should not develop their own training
                            materials, as this is the sponsors’ responsibility. 17, 18 However, CMS
                            guidance states that pharmacy staff may administer the training to
                            themselves if the materials are provided by a sponsor or contractor.
                            CMS gives sponsors latitude in how training is administered. The
                            agency’s guidance states that “training can be conducted interactively,
                            led by expert facilitators, via Web-based tools and Intranet sites, live or
                            videotaped presentations, written materials, or a combination of these
                            techniques.” 19 To assist sponsors in developing training, CMS guidance
                            identifies types of fraud, waste, and abuse risks that may occur in a
                            pharmacy setting:
                                  •      billing for nonexistent prescriptions;




                               15 CMS uses the term “should” for recommendations, but uses “shall” or “must” to refer to
                            statutory or regulatory program requirements.
                               16 CMS Memorandum, Fraud, Waste, and Abuse Training Clarification, August 21, 2009.
                              17 CMS Memorandum, Fraud, Waste, and Abuse Training Requirements, October 20,

                            2008.
                              18 A PBM may provide training materials to its own pharmacies on behalf of sponsors

                            with which it contracts. However, pharmacies’ corporate offices that are not acting as PBMs
                            should not provide training materials.
                                19 CMS,    Medicare Prescription Drug Benefit Manual, Pub. No. 100-18, ch. 9, § 50.2.3.3.



    OEI-01-10-00060       M ED IC AR E P R ESC R IPT I ON DR UG S PO NS OR S ’ T R A IN I NG TO P REV EN T F R AU D, WAST E,   AND   ABUSE   4
I   N T     R O       D     U     C T        I    O     N




                                  •      billing for more expensive brand-name drugs but dispensing
                                         generics;
                                  •      forging or altering prescriptions;
                                  •      switching, splitting, or shorting prescriptions; and
                                  •      stealing a Medicare beneficiary’s identity. 20
                            Sponsors’ Obligations To Provide or Ensure Provision of Training
                            CMS requires sponsors to either provide training directly to all of their
                            pharmacies or to provide training materials and ensure that the
                            training has been taken.21 CMS guidance does not specify how sponsors
                            should ensure that their network pharmacies have taken training to
                            prevent fraud, waste, and abuse; however, CMS states that as part of an
                            audit and review process, it will verify that all necessary training has
                            been provided.22
                            Sponsors contend that it is cumbersome for pharmacies to receive
                            training from each sponsor with which they contract. 23, 24 Therefore,
                            CMS states that network pharmacies need to take only one training
                            that fulfills the requirement and provide proof to each sponsor to verify
                            completion.25, 26


                            METHODOLOGY
                            Scope
                            This study analyzed the extent to which Medicare drug plan sponsors
                            provided, and network pharmacies received, training to prevent fraud,
                            waste, and abuse in 2009. It also analyzed the extent to which sponsors
                            determined whether training was effective in preventing, detecting, and
                            responding to these threats. Although training should be provided to all
                            first-tier, downstream, and related entities, this study focused on
                            network pharmacies only—specifically, chain, independent, and
                            mail-order pharmacies. This study excluded long-term-care, home


                                20 CMS, Medicare Prescription Drug Benefit Manual, Pub. No. 100-18, ch. 9, § 70.1.3.
                                21 CMS Memorandum, Fraud, Waste, and Abuse Training Requirements, October 20,

                            2008.
                                22 72 Fed. Reg. 68700, 68707 (Dec. 5, 2007).
                                23 CMS Memorandum, Fraud, Waste, and Abuse                        Training Clarification, August 21, 2009.
                                24 74 Fed. Reg. 54644 (Oct. 22, 2009).
                                25 Ibid.
                                26 72 Fed. Reg. 68706 (Dec. 5, 2007).




    OEI-01-10-00060       M ED IC AR E P R ESC R IPT I ON DR UG S PO NS OR S ’ T R A IN I NG TO P REV EN T F R AU D, WAST E,   AND   ABUSE   5
    I   N T       R O    D     U     C T        I    O     N



                     infusion, and I/T/U pharmacies because they make up a small
                     percentage of the population of network pharmacies. This study focused
                     specifically on the elements of sponsors’ training that address Part D
                     fraud, waste, and abuse. We did not review other elements of sponsors’
                     compliance plans, nor did we assess sponsors’ overall program
                     compliance.
                     Data Sources
                     We used the following four data sources to analyze training to prevent
                     fraud, waste, and abuse in 2009: (1) a survey of Part D sponsors, (2) a
                     survey of a random sample of network pharmacies, (3) training
                     materials, and (4) followup interviews with sponsors and pharmacies.
                     Survey of Part D sponsors. We surveyed all 266 sponsors that offered
                     Part D plans in 2009. We used files from CMS’s Health Plan
                     Management System to create the universe of sponsors. We developed
                     and used a questionnaire to determine the extent to which sponsors
                     developed and provided training in 2009. We also used the
                     questionnaire to ask sponsors for contextual information, such as who
                     designed the training and what documentation they used to verify that
                     network pharmacies had taken it. Additionally, we used the
                     questionnaires to assess how sponsors determine whether their network
                     pharmacies are receiving training and education that are effective in
                     preventing, detecting, and responding to fraud, waste, and abuse. We
                     made three attempts to obtain survey responses from sponsors. We
                     made the first attempt via U.S. Postal Service, the second attempt by
                     UPS, and the third attempt by phone. We received responses from
                     258 sponsors, a response rate of 97 percent.
                     Survey of random sample of network pharmacies. We surveyed a random
                     sample of 528 pharmacies. We used files from the National Council of
                     Prescription Drug Programs (NCPDP), which contains a list of all
                     pharmacies in the United States, to create the universe of pharmacies,
                     which contained 75,675 pharmacies.
                     We limited the file to nongovernment retail and mail-order pharmacies
                     that opened prior to November 1, 2009. 27, 28 This resulted in
                     61,003 pharmacies from which to select our sample. After excluding
                     pharmacies in our pretest sample and duplicate pharmacies in the


                        27 We excluded long-term-care, home infusion, and I/T/U pharmacies.
                        28 We selected 15 pharmacies to pretest our survey prior to drawing our random sample.




OEI-01-10-00060    M ED IC AR E P R ESC R IPT I ON DR UG S PO NS OR S ’ T R A IN I NG TO P REV EN T F R AU D, WAST E,   AND   ABUSE   6
  I   N T    R O      D     U     C T        I   O     N



                     NCPDP list, this left 60,786 pharmacies (40,086 chain,
                     20,479 independent, and 221 mail-order) from which to select our
                     sample.
                     We divided our pharmacy population into three strata: chain retail
                     pharmacies, independent retail pharmacies, and mail-order pharmacies.
                     Our total sample included 551 pharmacies: random samples of 165
                     chain retail pharmacies and 165 independent retail pharmacies and the
                     complete population of 221 mail-order pharmacies. 29 We dropped 23
                     pharmacies (8 independent pharmacies and 15 mail-order pharmacies)
                     that responded to our questionnaire that they were either no longer in
                     business or did not submit Part D claims in 2009, which reduced our
                     total sample size to 528.
                     In our questionnaire, we also asked pharmacies for contextual
                     information, such as whether their training was provided to them by
                     sponsors, industry associations, or other sources or was self-
                     administered. We used these questionnaires to determine the extent to
                     which network pharmacies took training to prevent fraud, waste, and
                     abuse in 2009 and which organization developed and administered it.
                     We made three attempts to obtain survey responses from pharmacies.
                     We sent the first two attempts via U.S. Postal Service and the third
                     attempt via UPS. Our overall response rate was 74 percent.30 We
                     received 335 survey responses: 113 chain pharmacies, 136 independent
                     pharmacies, and 86 mail-order pharmacies responded. Because the
                     NCPDP data lacked information about pharmacy characteristics, we
                     were unable to compare respondents to nonrespondents.
                     Training materials. Our questionnaire asked sponsors and pharmacies to
                     submit copies of any materials they used in 2009 to conduct training to
                     prevent fraud, waste, and abuse. Among the 258 sponsor respondents,
                     209 (81 percent) submitted materials. We received materials from
                     211 pharmacies. This represents 38 percent of the 551 pharmacies
                     surveyed and 63 percent of the 335 pharmacy respondents. We used
                     these materials to assess the extent to which sponsors followed CMS
                     guidance on training material content.



                       29 NCPDP defines chain pharmacies as a group of four or more pharmacies under

                     common ownership; independent pharmacies may have one to three pharmacies under
                     common ownership.
                          30 This calculation was weighted based on the stratified sample selection.




OEI-01-10-00060    M ED IC AR E P R ESC R IPT I ON DR UG S PO NS OR S ’ T R A IN I NG TO P REV EN T F R AU D, WAST E,   AND   ABUSE   7
      I   N T     R O       D    U     C T        I    O     N


                    Followup interviews with sponsors and pharmacies. We interviewed staff
                    from a purposive sample of five sponsors and five pharmacies. We
                    selected each interviewee based on responses to our survey. We aimed
                    to interview sponsors and pharmacies whose responses were
                    substantively different from one another. We asked sponsor staff about
                    the process they use to create and conduct training and the way in
                    which they ensure that network pharmacies comply with training
                    requirements. In addition, we asked how they evaluate the
                    effectiveness of training and requested any documentation that
                    supports this. Similarly, we asked pharmacy staff about their
                    experiences with and perceptions of training to prevent fraud, waste,
                    and abuse. We analyzed interview data for common themes.
                    Limitations
                    All data from surveys are self-reported. We did not independently
                    verify survey responses or information given in interviews.
                    Standards
                    This study was conducted in accordance with the Quality Standards for
                    Inspection and Evaluation issued by the Council of the Inspectors
                    General on Integrity and Efficiency.




OEI-01-10-00060   M ED IC AR E P R ESC R IPT I ON DR UG S PO NS OR S ’ T R A IN I NG TO P REV EN T F R AU D, WAST E,   AND   ABUSE   8
        F I N D I N G S

      Nearly all Part D network pharmacies received             CMS requires sponsors to
training to prevent fraud, waste, and abuse in 2009;            provide training to prevent
                                                                fraud, waste, and abuse for any
however, not all sponsors documented the training
                                                                pharmacy employee responsible
                          for delivering Part D benefits. CMS has also stated that it will audit
                          sponsors to determine whether the training requirements have been
                          met. 31
                          At least 87 percent of pharmacies reported that all of their staff received
                          training in 2009
                          Most pharmacies reported that every staff member involved in
                          delivering the Part D benefit—such as pharmacists, pharmacy
                          managers, and pharmacy technicians—took training. One to two
                          percent of pharmacies indicated that only some of the required staff
                          took training. Table 1 shows the percentage of pharmacy staff who
                          received training. (See Appendix A for complete point estimates and
                          confidence intervals of pharmacy data.)
                          Table 1: Rates of Training To Prevent Fraud, Waste, and Abuse
                          for Pharmacy Employees

                                                                                                                     Pharmacies Reporting That
                              Pharmacy Staff Who                    Pharmacies Reporting That All
                                                                                                                                 Most or Some
                                                                          Staff Received Training
                              Received Training                                                                         Staff Received Training
                                                                                          (n=335)
                                                                                                                                        (n=335)

                             Pharmacists                                                             95%                                       1%

                             Pharmacy managers                                                       88%                                       0%

                             Pharmacy technicians                                                    90%                                       2%
                           Rows do not sum to 100% because not all pharmacies employ each type of pharmacy staff listed above.

                           Source: OIG survey of Part D network pharmacies, 2010.




                          Overall, pharmacies reported that staff took training either individually
                          or as a combination of group and individual training. Pharmacies also
                          reported that the format of their training included a computer-assisted
                          component and written materials. Fewer pharmacies reported that
                          their training included lecture and discussion.




                             31 72 Fed. Reg. 68700, 68707 (Dec. 5, 2007).




      OEI-01-10-00060   M ED IC AR E P R ESC R IPT I ON DR UG S PO NS OR S ’ T R A IN I NG TO P REV EN T F R AU D, WAST E,   AND   ABUSE   9
  F   I   N   D I    N G         S


                      Sponsors did not always require their network pharmacies to submit
                      documentation of training
                      Thirty percent of sponsors reported that they did not require
                      documentation showing that pharmacy staff had taken training.
                      Similarly, 35 percent of pharmacies reported that sponsors did not require
                      them to submit documentation verifying completion of the training.
                      Sponsors and pharmacies stated that when documentation was collected,
                      attestations and certificates of completion were the most common types.
                      Although CMS does not specify whether sponsors must document their
                      network pharmacies’ completion of training to prevent fraud, waste, and
                      abuse, it expects sponsors to be able to demonstrate this during an audit. 32
                      However, our followup interviews with sponsors suggested that they may
                      not know of this requirement or may be unable to readily produce training
                      documentation. Sponsors we interviewed told us that they delegate
                      training functions to their PBMs, which are responsible for collecting and
                      maintaining the documentation on the sponsors’ behalf.


                                                                 CMS guidance identifies five
           Training materials generally reflected
                                                                 elements that sponsors should
          CMS guidance on content and source,                    address to meet the training
                          with a few exceptions                  requirement on fraud, waste,
                                                                 and abuse: (1) fraud-related
                      statutes (e.g., False Claims Act, antikickback statute, HIPAA);
                      (2) obligations of the pharmacy to have policies and procedures;
                      (3) a process for reporting suspected fraud, waste, and abuse to
                      sponsors; (4) protections against retaliation for employees who report;
                      and (5) examples of fraud, waste, and abuse that can occur in
                      pharmacies. 33 CMS also issued guidance in 2008 to clarify that
                      pharmacies should not develop the training materials they use; rather,
                      sponsors should administer training directly or provide materials to
                      their network pharmacies so that pharmacy staff may administer the
                      training to themselves. 34




                         32 72 Fed. Reg. 68700, 68707 (Dec. 5, 2007).
                         33 CMS Memorandum, Fraud, Waste, and Abuse                         Training Clarification, August 21, 2009.
                         34 CMS Memorandum,              Fraud, Waste, and Abuse Training Requirements, October 20,
                      2008.



OEI-01-10-00060     M ED IC AR E P R ESC R IPT I ON DR UG S PO NS OR S ’ T R A IN I NG TO P REV EN T F R AU D, WAST E,   AND   ABUSE   10
F   I     N   D I    N G     S


                            More than a third of the training materials failed to include information on
                            HIPAA
                            Training materials submitted by sponsors and pharmacies included
                            information on the False Claims Act and antikickback laws in nearly all
                            cases. However, they did not consistently include information on
                            HIPAA (see Table 2). HIPAA established privacy rules for handling
                            patients’ sensitive medical data. Pharmacy employees who are
                            unfamiliar with that law could inadvertently reveal beneficiaries’
                            medical data, placing them at risk for identity theft and other types of
                            fraud.
                            Table 2: Fraud, Waste, and Abuse Statutes Included in Training
                            Materials

                               Statute Element                                                Pharmacies                                 Sponsors
                                                                                                  (n=211)                                  (n=209)

                              False Claims Act                                                         96%                                      98%

                              Antikickback laws                                                        94%                                      97%

                              HIPAA                                                                    55%                                      66%
                           Source: OIG survey of Part D network pharmacies, 2010.


                            Most training materials included the other elements in CMS guidance
                            Training materials contained information on pharmacies’ obligations to
                            have policies and procedures on fraud, waste, and abuse; reporting
                            processes; and retaliation protections for employees. Additionally, most
                            materials from sponsors and pharmacies directed pharmacy employees
                            to report fraud, waste, and abuse to their managers, to PBMs, or
                            directly to sponsors (see Tables 3 and 4).
                            Table 3: Required Elements Included in Training Materials

                                                                                                                Pharmacies                   Sponsors
                                 Training Element
                                                                                                                    (n=211)                    (n=209)

                               Obligations to have policies and procedures                                                92%                    82%

                               Process for reporting fraud, waste, and abuse                                              94%                    86%

                               Protections for employees                                                                  92%                    83%
                            Source: OIG survey of Part D network pharmacies, 2010.




        OEI-01-10-00060   M ED IC AR E P R ESC R IPT I ON DR UG S PO NS OR S ’ T R A IN I NG TO P REV EN T F R AU D, WAST E,   AND   ABUSE        11
    F   I   N     D I     N G        S


                        Table 4: Reporting Authorities Included in Training Materials

                                                                                                     Pharmacies                        Sponsors
                           Reporting Authorities
                                                                                                         (n=211)                         (n=209)

                          Pharmacy manager, PBM, or sponsor                                                    69%                         93%

                          OIG                                                                                  52%                         15%

                          CMS                                                                                   8%                          8%
                        Source: OIG survey of Part D network pharmacies, 2010.



                        Training materials also provided common examples of fraud, waste, and
                        abuse that can occur in pharmacies. As Table 5 shows, such schemes
                        include switching, splitting, or shorting prescriptions; billing for
                        nonexistent prescriptions; and billing a sponsor for a brand-name drug
                        but dispensing a generic. These are all examples that CMS
                        recommended in guidance to sponsors regarding training material
                        content. 35
                        Table 5: Common Fraud Risks Described in Training Materials

                          Common Fraud Risk                                                        Pharmacies                      Sponsors
                                                                                                       (n=211)                       (n=209)

                          Switching, splitting, or shorting prescriptions                                   96%                           89%

                          Billing for nonexistent prescriptions                                             94%                           87%

                          Billing for brand-name but dispensing generic                                     91%                           78%
                        Source: OIG survey of Part D network pharmacies, 2010.




                        The sources for more than half of the training materials used by pharmacies
                        were the pharmacies’ corporate offices, despite CMS guidance
                        Despite CMS guidance to sponsors stating that pharmacies should not
                        develop their own training materials, 51 percent of pharmacies used
                        materials created by their corporate offices (see Table 6). However,
                        20 percent of pharmacies reported that they used materials that either
                        a Part D sponsor or a sponsor’s PBM developed. Other sources included
                        third-party vendors/consultants and professional associations.




                           35 CMS,   Medicare Prescription Drug Benefit Manual, Pub. No. 100-18, ch. 9, § 70.1.3.



OEI-01-10-00060     M ED IC AR E P R ESC R IPT I ON DR UG S PO NS OR S ’ T R A IN I NG TO P REV EN T F R AU D, WAST E,   AND   ABUSE        12
  F   I   N   D I   N G       S


                      Table 6: Sources of Pharmacies’ Training Materials

                         Source                                                                                                   Pharmacies
                                                                                                                                      (n=335)

                        Pharmacy corporate office                                                                                       51%

                        Third-party vendor or consultant                                                                                28%

                        Part D sponsor                                                                                                  14%

                        Professional association                                                                                         6%

                        PBM                                                                                                              6%

                        Other                                                                                                            4%

                        Do not know                                                                                                      4%
                     Figures do not sum to 100% because some pharmacies indicated more than one source.

                     Source: OIG survey of Part D network pharmacies, 2010.




                                                              CMS requires sponsors to “provide
Most sponsors could not determine the extent
                                                              effective training and education”
              to which training was effective                 for their network pharmacies.
                                                              CMS does not define what
                      constitutes “effective” training; rather, it instructs sponsors to provide
                      training and education that are effective in detecting, preventing, and
                      responding to fraud, waste, and abuse.
                      Although 59 percent of sponsors reported that they assessed the training’s
                      effectiveness, fewer than half used measures clearly linked to fraud, waste,
                      and abuse
                      Of the 153 sponsors that reported assessing the training’s effectiveness,
                      74 analyzed data that could demonstrate changes in pharmacy staffs’
                      understanding of fraud, waste, and abuse issues or changes in the
                      reporting or detection of fraud, waste, and abuse. Two of these sponsors
                      administered posttraining tests to pharmacy staff to determine their
                      knowledge of fraud, waste, and abuse. The other 72 reviewed trends in
                      fraud, waste, and abuse reporting; pharmacy audits; or analysis of
                      pharmacy claims to determine the extent to which they were providing
                      effective training.
                      The remaining 79 sponsors that reported determining the extent to
                      which they provided effective training did not provide any metric that
                      they used in assessing the effectiveness of training. Forty-eight of these
                      sponsors reported determining that training was effective because it
                      raised pharmacies’ awareness of fraud, waste, and abuse issues. The
                      remaining sponsors in this group described their general oversight

  OEI-01-10-00060   M ED IC AR E P R ESC R IPT I ON DR UG S PO NS OR S ’ T R A IN I NG TO P REV EN T F R AU D, WAST E,   AND   ABUSE       13
   F   I   N   D I      N G        S

                       processes for pharmacies, their use of attestations, or feedback from
                       pharmacies as the basis for assessing the training’s effectiveness.
                       Forty-one percent of sponsors did not assess the effectiveness of their
                       training
                       Among 258 sponsors that responded to our survey, 105 did not
                       determine the extent to which training was effective. Fifty-four of these
                       105 sponsors gave no explanation, and 37 said that the training was too
                       new to assess because it was not required until 2009. The remaining
                       sponsors said that they had no guidelines from CMS with which to
                       assess it, that they were not required to assess it, or that they planned
                       to begin assessing the training in the coming year. Although CMS did
                       not enforce training for pharmacies until 2009, this training is not a
                       new requirement in Part D. CMS has required sponsors to provide
                       training for their employees since the start of the Part D program in
                       2006.




OEI-01-10-00060      M ED IC AR E P R ESC R IPT I ON DR UG S PO NS OR S ’ T R A IN I NG TO P REV EN T F R AU D, WAST E,   AND   ABUSE   14
     R E C O M M E N D A T I O N S


                        Fraud, waste, and abuse represent significant threats to Medicare Part
                        D, making training on how to prevent them vital to safeguarding the
                        program. Toward that end, CMS provided guidance on such training to
                        strengthen network pharmacies’ ability to prevent, detect, and respond
                        to these threats. This study identified opportunities to help hone the
                        effectiveness of that training.
                        Overall, we found that sponsors provided, and nearly all pharmacies
                        took, training to prevent fraud, waste, and abuse in 2009. However, not
                        all sponsors required documentation of training from their pharmacies.
                        Furthermore, although the content of the training generally reflected
                        CMS guidance, more than a third of the training materials lacked
                        information on HIPAA.
                        Even though CMS specifies that pharmacies should not develop training
                        materials, we found that most of them were created by pharmacies.
                        Finally, our survey results and interviews also raise concerns about
                        whether and how sponsors determine the extent to which their training
                        and education are effective. Forty-one percent of sponsors did not
                        assess the effectiveness of their training and education; of the
                        59 percent that did, fewer than half used measures clearly related to
                        fraud, waste, and abuse.
                        Taken together, these results raise questions about the extent to which
                        fraud, waste, and abuse training is effective in helping pharmacies
                        prevent, detect, and respond to these threats.
                        Therefore, we recommend that CMS:
                        Reiterate to sponsors their responsibilities to provide network
                        pharmacies’ training on Part D fraud, waste, and abuse
                        To do so, CMS should reissue guidance to sponsors regarding its
                        expectations for them to:
                              •      develop and disseminate training materials to their network
                                     pharmacies;
                              •      include HIPAA in their materials;
                              •      maintain documentation that pharmacies have received
                                     training; and




    OEI-01-10-00060   M ED IC AR E P R ESC R IPT I ON DR UG S PO NS OR S ’ T R A IN I NG TO P REV EN T F R AU D, WAST E,   AND   ABUSE   15
    R   E C       O     M     M     E     N D        A T        I    O     N     S



                              •      determine the extent to which they are providing effective
                                     training and education that reduce fraud, waste, and abuse
                                     risks.
                        Use its monitoring authority to determine compliance with training
                        requirements
                        CMS routinely audits sponsors’ compliance plans to oversee their
                        adherence to programmatic requirements. Toward that end, CMS
                        should use these audits to ensure that sponsors are in compliance with
                        all fraud, waste, and abuse training requirements noted above. To
                        achieve this goal, CMS should:
                              •      review training materials to ensure that pharmacies are not
                                     developing them;
                              •      verify that all required contents, including HIPAA, are part of
                                     the materials;
                              •      clarify its requirements regarding sponsors’ obligations to collect
                                     documentation from their network pharmacies that they have
                                     taken training; and
                              •      request documentation supporting the extent to which sponsors
                                     are developing and providing effective training and education for
                                     their network pharmacies.
                        Take steps to ensure that sponsors are providing effective training and
                        education to prevent fraud, waste, and abuse
                        CMS requires sponsors to provide their network pharmacies with
                        training and education that are effective in preventing, detecting, and
                        responding to fraud, waste, and abuse. To this end, CMS should:
                              •      develop guidance for sponsors to use in assessing the effectiveness
                                     of training and education on fraud, waste, and abuse; or
                              •      provide a forum (e.g., online or conference call) in which sponsors
                                     can share best practices used to determine the training’s
                                     effectiveness. For example, sponsors could demonstrate the
                                     training’s effectiveness using posttraining tests, analysis of
                                     pharmacy audits or claims data, or other quantifiable methods.




OEI-01-10-00060       M ED IC AR E P R ESC R IPT I ON DR UG S PO NS OR S ’ T R A IN I NG TO P REV EN T F R AU D, WAST E,   AND   ABUSE   16
R   E C    O   M      M    E     N D        A T        I    O     N     S



                            AGENCY COMMENTS AND OFFICE OF INSPECTOR GENERAL
                            RESPONSE
                            CMS concurred with our recommendations. The complete text of CMS’s
                            comments appears in Appendix B.




    OEI-01-10-00060       M ED IC AR E P R ESC R IPT I ON DR UG S PO NS OR S ’ T R A IN I NG TO P REV EN T F R AU D, WAST E,   AND   ABUSE   17
     A P P E N D I X ~ A

Table A-1: Confidence Intervals



                                                              Sample                         Point                  95-Percent
 Statistic
                                                                Size                      Estimate          Confidence Interval


 At least 87 percent of pharmacies reported
 that all of their staff received fraud, waste,                     335                       87.5%                  82.9%–91.0%
 and abuse training in 2009.


 Ninety-five percent of pharmacies reported
 that all of their registered pharmacists
                                                                    335                       95.0%                  91.4%–97.2%
 received fraud, waste, and abuse training in
 2009.


 Eighty-eight percent of pharmacies
 reported that all of their pharmacy
                                                                    335                       88.3%                  83.8%–91.7%
 managers received fraud, waste, and
 abuse training in 2009.


 Ninety percent of pharmacies reported that
 all of their pharmacy technicians received                         335                       90.3%                  86.0%–93.3%
 fraud, waste, and abuse training in 2009.


 Fewer than 1 percent of pharmacies
 reported that most or some of their
                                                                    335                        0.6%                     0.1%–2.2%
 registered pharmacists received fraud,
 waste, and abuse training in 2009.


 Fewer than 1 percent of pharmacies
 reported that most or some of their
                                                                    335                        0.3%                     0.0%–1.8%
 pharmacy managers received fraud, waste,
 and abuse training in 2009.


 Two percent of pharmacies reported that
 most or some of their pharmacy technicians
                                                                    335                        1.7%                     0.7%–4.1%
 received fraud, waste, and abuse training in
 2009.


 Eighty-four percent of pharmacies reported
                                                                    326                      84.1%                  80.0%–87.4%
 that their staff took training individually.


 Ten percent of pharmacies reported that
 their staff took a combination of group and                        326                        9.6%                  7.0%–12.9%
 individual training.


 Sixty-three percent of pharmacies reported
 that their training included a computer-                           326                      62.6%                  56.1%–68.7%
 assisted component.


 Thirty-one percent of pharmacies reported
                                                                    326                      31.3%                  26.4%–36.7%
 that their training included written materials.



    OEI-01-10-00060       M ED IC AR E P R ESC R IPT I ON DR UG S PO NS OR S ’ T R A IN I NG TO P REV EN T F R AU D, WAST E,   AND   ABUSE   18
A     P P       E   N    D I      X         ~         A


                                                                Sample                         Point                  95-Percent
    Statistic                                                     Size                      Estimate          Confidence Interval


    Twelve percent of pharmacies reported that
                                                                      326                      11.6%                   8.5%–15.5%
    their training included lecture and
    discussion.

    Thirty-five percent of pharmacies reported
    that sponsors had not asked them for                              335                       35.3%                 29.3%–41.8%
    documentation of training.

    Eighty-seven percent of pharmacies
    reported that attestations were the most
                                                                      156                      86.6%                  79.3%–91.6%
    commonly submitted type of
    documentation.

    Eighteen percent of pharmacies reported
    that certificates of completion were the
                                                                      156                      17.7%                  12.3%–24.9%
    most commonly submitted type of
    documentation.

    Ninety-six percent of training materials in
    2009 contained information on the False                           211                       96.4%                  91.4%–98.6%
    Claims Act.

    Ninety-four percent of training materials in
    2009 contained information on the                                 211                       94.3%                  88.4%–97.3%
    antikickback statute.

    Fifty-five percent of training materials in
    2009 contained information on the Health
                                                                      211                       54.7%                  46.2%–63.0%
    Insurance Portability and Accountability
    Act.

    Ninety-two percent of training materials
    submitted by pharmacies included
                                                                      211                       91.9%                 85.8%–95.5%
    obligations to have policies and procedures
    on fraud, waste, and abuse.

    Ninety-four percent of training materials
    submitted by pharmacies included a
                                                                      211                       93.9%                  88.7%–96.8%
    process for reporting fraud, waste, and
    abuse.

    Ninety-two percent of training materials
    submitted by pharmacies included
                                                                      211                       91.8%                 86.4%–95.2%
    protections for employees against
    retaliation.

    Sixty-nine percent of training materials from
    pharmacies directed pharmacy employees
    to report fraud, waste, and abuse to their                        211                       69.3%                  60.6%–76.8%
    managers, to Pharmacy Benefit Managers
    (PBM), or directly to sponsors.

    Fifty-two percent of training materials from
    pharmacies directed pharmacy employees
                                                                      211                       52.0%                 43.6%–60.3%
    to report fraud, waste, and abuse to the
    Office of Inspector General.



      OEI-01-10-00060       M ED IC AR E P R ESC R IPT I ON DR UG S PO NS OR S ’ T R A IN I NG TO P REV EN T F R AU D, WAST E,   AND   ABUSE   19
A   P P     E   N     D I     X         ~         A


                                                            Sample                         Point                  95-Percent
Statistic                                                     Size                      Estimate          Confidence Interval



Eight percent of training materials from
pharmacies directed pharmacy employees                            211                        8.2%                  4.9%–13.3%
to report fraud, waste, and abuse to the
Centers for Medicare & Medicaid Services.

Ninety-six percent of training materials from
pharmacies list "switching, splitting, or
                                                                  211                       96.4%                  91.4%–98.6%
shorting prescriptions" as a common fraud
risk.


Ninety-four percent of training materials
from pharmacies list "billing for nonexistent                     211                       93.8%                  88.3%–96.9%
prescriptions" as a common fraud risk.


Ninety-one percent of training materials
from pharmacies list "billing for brand-name
                                                                  211                       91.3%                  85.5%–94.9%
but dispensing generic" drugs as a
common fraud risk.


Fifty-one percent of pharmacies used
                                                                  335                       50.5%                  44.9%–56.1%
materials created by their corporate offices.

Twenty-eight percent of pharmacies used
materials created by a third-party vendor or                      335                       27.7%                  22.5%–33.6%
consultant.

Fourteen percent of pharmacies used
                                                                  335                       13.7%                  10.4%–17.8%
materials created by a Part D sponsor.


Six percent of pharmacies used materials
                                                                  335                        6.4%                   4.0%–10.0%
created by a professional association.


Six percent of pharmacies used materials
                                                                  335                        6.2%                     3.9%–9.6%
created by a PBM.


Four percent of pharmacies said they used
                                                                  335                        3.6%                     2.0%–6.3%
training materials from another source.


Four percent of pharmacies do not know
which organization created the training                           335                        3.6%                     1.8%–7.0%
materials that they used.




    OEI-01-10-00060     M ED IC AR E P R ESC R IPT I ON DR UG S PO NS OR S ’ T R A IN I NG TO P REV EN T F R AU D, WAST E,   AND   ABUSE   20
    A P PEN D                         x         B

Agency Comments




                       DEPARTMENT OF HEALTH & HUMAN SERVICES                                     yenteTlj for Medicar. & Medicaid Services


                                                                                                 Administrator
                                                                                                 Washington. DC 20201




                    DATE:             JUN 0 22011
                    TO: 	          Daniel R. Levinson
                                   Inspector General

                    FROM: 	        Donald M. Berwick, M.D.
                                                               /S/
                                   Administrator

                    SUBJECT: 	 Office of Inspector General (OlG) Draft Report: "Medicare Prescription Drug
                               Sponsors' Training on Fraud, Waste, and Abuse" (OEI.Ol-1O-00060)


                    The Centers for Medicare & Medicaid Services (CMS) appreciates the opportunity to review and
                    comment on the Office of Inspector General (OIG) draft report entitled, "Medicare Prescription
                    Drug Sponsors' Tmining on Fraud, Waste, and Abuse." CMS provides guidance on fraud,
                    waste, and abuse training to strengthen network pharmacies' ability to prevent, detect, and
                    respond to threats.                           .

                    The CMS appreciates OIG's efforts in working with us to help hone the effectiveness of that
                    training. In accordance with our commitment to safeguard the Medicare trust fund, CMS will
                    reissue guidance to sponsors reiterating their responsibilities to provide training on Part D fmud,
                    waste, and abuse to their entities, determine sponsors' compliance with training requirements
                    through routine audits, and will make available a Web-based Part C/D Tmining Fraud Module,
                    as well as hard-copy training material, for sponsors to utilize. Lastly, CMS will work with
                    sponsors to develop and share best practices in assessing the effectiveness of fraud, waste, and
                    abuse training.

                    Our response to each of the OlG recommendations follows.

                    OIG Reeommendation

                    The CMS should reitemte to sponsors their responsibilities to provide network pharmacies'
                    training on Part D fraud, waste, and abuse.

                    CMS Response

                    The CMS concurs with this recommendation. eMS will reissue guidance to sponsors reiterating 

                    their responsibilities to provide tmining on Part D fraud, waste, and abuse to their first tier; 

                    downstream, and related entities. 





  OEI·01·10·00060       MEDICARE PRESCRIPTION DRUG SPONSORS' TRAINING To PREVENT FRAUD, WASTE, AND ABUSE                             21
A   P P    E   N      D I   X         ~         B




    OEI-01-10-00060     M ED IC AR E P R ESC R IPT I ON DR UG S PO NS OR S ’ T R A IN I NG TO P REV EN T F R AU D, WAST E,   AND   ABUSE   22
      A C K N O W L E D G M E N T S

                        This report was prepared under the direction of Joyce Greenleaf,
                        Regional Inspector General for Evaluation and Inspections in the
                        Boston regional office, and Russell Hereford, Deputy Regional Inspector
                        General.
                        Melissa Hafner served as the lead analyst for this study. Other
                        principal Office of Evaluation and Inspections staff from the Boston
                        regional office who contributed to the report include Tim Chettiath;
                        central office staff who contributed include Robert Gibbons and Rita
                        Wurm.




    OEI-01-10-00060   M ED IC AR E P R ESC R IPT I ON DR UG S PO NS OR S ’ T R A IN I NG TO P REV EN T F R AU D, WAST E,   AND   ABUSE   23
                 Office of Inspector General
                                  http://oig.hhs.gov

The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, as
amended, is to protect the integrity of the Department of Health & Human Services (HHS)
programs, as well as the health and welfare of beneficiaries served by those programs. This
statutory mission is carried out through a nationwide network of audits, investigations, and
inspections conducted by the following operating components:

Office of Audit Services
The Office of Audit Services (OAS) provides auditing services for HHS, either by conducting
audits with its own audit resources or by overseeing audit work done by others. Audits
examine the performance of HHS programs and/or its grantees and contractors in carrying
out their respective responsibilities and are intended to provide independent assessments of
HHS programs and operations. These assessments help reduce waste, abuse, and
mismanagement and promote economy and efficiency throughout HHS.

Office of Evaluation and Inspections
The Office of Evaluation and Inspections (OEI) conducts national evaluations to provide
HHS, Congress, and the public with timely, useful, and reliable information on significant
issues. These evaluations focus on preventing fraud, waste, or abuse and promoting
economy, efficiency, and effectiveness of departmental programs. To promote impact, OEI
reports also present practical recommendations for improving program operations.

Office of Investigations
The Office of Investigations (OI) conducts criminal, civil, and administrative investigations
of fraud and misconduct related to HHS programs, operations, and beneficiaries. With
investigators working in all 50 States and the District of Columbia, OI utilizes its resources
by actively coordinating with the Department of Justice and other Federal, State, and local
law enforcement authorities. The investigative efforts of OI often lead to criminal
convictions, administrative sanctions, and/or civil monetary penalties.

Office of Counsel to the Inspector General
The Office of Counsel to the Inspector General (OCIG) provides general legal services to
OIG, rendering advice and opinions on HHS programs and operations and providing all
legal support for OIG’s internal operations. OCIG represents OIG in all civil and
administrative fraud and abuse cases involving HHS programs, including False Claims Act,
program exclusion, and civil monetary penalty cases. In connection with these cases, OCIG
also negotiates and monitors corporate integrity agreements. OCIG renders advisory
opinions, issues compliance program guidance, publishes fraud alerts, and provides other
guidance to the health care industry concerning the anti-kickback statute and other OIG
enforcement authorities.
